No. 20-1088

In the Supreme Court of the United States
DAVID AND AMY CARSON, AS PARENTS AND
NEXT FRIENDS OF O.C., AND TROY AND ANGELA NELSON,
AS PARENTS AND NEXT FRIENDS OF A.N. AND R.N.,

Petitioners,
v.
A. PENDER MAKIN, IN HER OFFICIAL CAPACITY AS
COMMISSIONER OF THE MAINE DEPARTMENT OF
EDUCATION,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus Curiae
of the Liberty Justice Center and American Federation for Children contains 3,854
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 11, 2021
/s/ Daniel R. Suhr
Daniel R. Suhr
Counsel of Record
LIBERTY JUSTICE CENTER
208 LaSalle St., Ste. 1690
Chicago, IL 60604
(312) 637-2280
dsuhr@libertyjusticecenter.org

